                                                                         Legal Services Corporation
                                                                         Office of Inspector General




Inspector General
Jeffrey E. Schanz



        March 30,2009



       Ms. Marcia K. Cypen
       Executive Director
       Legal Services of Greater Miami, Inc.
       3000 Biscayne Boulevard
       Miami, FL 33137-4129

       Dear Ms. Cypen:

       Enclosed is our final report on the Office of lnspector General (OIG) audit of
       Selected Internal Controls at Legal Services of Greater Miami, Inc. Your
       corrective actions are responsive to the issues identified in the report. All
       findings and recommendations are considered closed. Your comments on the
       draft report are included as Appendix I.

       At your request, a statement was added to the Background section of the final
       report noting that Legal Services of Greater Miami, Inc. was not one of the
       grantees reviewed by GAO in 2007.

       We want to thank you and your staff for the cooperation and assistance you
       provided to us.

       Sincerely,




       lnspector General


       Enclosure

       cc:    Legal Services Corporation
              Karen Sarjeant, Vice President
              Programs and Compliance

                                                                         3333 K Street, NW 3rd Flow
                                                                         Washington, DC 20007-3522
                                                                         Phone 202.295.1660Fax 202.337.6616
                                                                         www.oig.lsc.gov
    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




  REPORT ON SELECTED INTERNAL
           CONTROLS




LEGAL SERVICES OF GREATER MIAMI, INC.
              RNO 610040


           Report No. AU09-04




             March 2009
            www.oig .lsc.gov
                                       TABLE OF CONTENTS



INTRODUCTION.......................................................................................... I

BACKGROUND............................................................................................ I

OBJECTIVE .................................................................................................   1

SCOPE AND METHODOLOGY ................................................................... 2

OVERALL EVALUATION ............................................................................. 3

AUDIT FINDINGS.........................................................................................4


  EMPLOYEE BENEFITS AND REIMBURSEMENTS.......................... 4

        Salary Advance Policy for Non-Union Staff .........................................4
         Recommendation 1 ..........................................................................5

        Cell Phone Use Policy .........................................................................5
         Recommendation 2 ..........................................................................5

        Procedures Governing Contracts for Services ....................................5
         Recommendation 3 ..........................................................................6

SUMMARY OF GRANTEE MANAGEMENT COMMENTS ..........................6

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS ..............6

APPENDIX I .GRANTEE MANAGEMENT COMMENTS
                                INTRODUCTION

In accordance with the Legal Services Corporation (LSC) Accounting Guide for
LSC Recipients (August 1997) (Accounting Guide), Chapter 3, an LSC grantee is
required to establish and maintain adequate accounting records and internal
control procedures. The Accounting Guide defines internal control as the
process put in place by the grantee designed to provide reasonable assurance of
achieving the following objectives:

          safeguarding of assets against unauthorized use or disposition;
          reliability of financial information and reporting; and
          compliance with regulations and laws that have a direct and material
          effect on the program.

The Accountins Guide further provides that each grantee must rely upon its
system of internal accounting controls and procedures to adequately address
concerns arising from such issues as defalcations and to meet the complete
financial information needs of its management.


                                 BACKGROUND

During 2007, the Government Accountability Office (GAO) performed limited
reviews of internal controls at several grantees.' At some grantee sites visited,
GAO found control weaknesses including using LSC grant funds for expenditures
with insufficient supporting documentation, entering into unusual contractor
arrangements, purchasing alcohol, providing employee interest-free loans,
making disbursements for lobbying fees and late fees, and recording derivative
income incorrectly. The Office of Inspector General (OIG) performed follow up
reviews at selected grantees audited by the GAO to determine whether the
grantee had corrected the conditions cited in the GAO report and had put
adequate controls in place to detect similar situations and prevent them from
recurring. Additionally at these grantees, the OIG evaluated other selected
financial and administrative areas and tested the related controls. We note that
Legal Services of Greater Miami, Inc. was not one of the grantees reviewed by
GAO.


                                  OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal
controls in place at Legal Services of Greater Miami, Inc. (grantee) as the
    --




' Government Accountability Office (GAO) Report (GAO-08-37) entitled Legal Setvices
Corporation - Improved Internal Controls Needed in Grants Management and Oversight
published on December 28,2007.
controls related to specific grantee operations and oversight, including program
expenditures, fiscal accountability, and compliance with selected LSC
regulations.     Specifically, the audit evaluated selected financial and
administrative areas and tested the related controls to ensure that costs were
adequately supported and allowed under the LSC Act and LSC regulations. In
addition, the audit examined selected regulatory policies and grantee processes
to assess whether controls were operating in a manner expected to ensure
compliance with the LSC Act and the selected LSC regulations.


                         SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over disbursements, the client
intake process, selected LSC regulations, and employee benefits and
reimbursements. To obtain an understanding of the internal controls over these
areas, we reviewed grantee policies and procedures, including any manuals,
guidelines, memoranda, and directives setting forth current grantee practices.
We interviewed grantee officials to obtain an understanding of the internal control
framework and interviewed grantee management and staff as to their knowledge
and understanding of the processes in place. We also interviewed the grantee's
independent public accountant. We relied on computer generated data provided
by the grantee to determine whether entries recorded in computer systems
matched the information contained on the source documents. However, we did
not test the general or application controls over the computer system. Fieldwork
was conducted at the grantee's central administrative office located in Miami,
Florida.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, we reviewed disbursements from a judgmentally
selected sample of employee and vendor files. The sample represented 18% of
the over $1.3 million the grantee disbursed during the period January 1, 2008
through .November 30, 2008 and consisted of 119 transactions totaling $238,939.
To assess the appropriateness of grantee expenditures, we reviewed invoices,
vendor lists, and general ledger details. The appropriateness of grantee
expenditures was evaluated on the basis of the grant agreements, applicable
laws and regulations, and LSC policy guidance.

The review of controls over the intake process focused solely on the Miami office.
The review included obtaining an understanding of the general intake process,
including both telephone and walk-in intake procedures. The review also
included examining procedures used by the grantee to document eligibility
determinations and compliance with LSC requirements.

To review internal controls over compliance with specific LSC regulations, (45
CFR Parts 1604, 1610, 1612 and 1617) we examined written compliance policies
and procedures, including applicable LSC mandated recordkeeping
requirements, to determine if the controls were operating in a manner to ensure
compliance with the provisions of the respective LSC regulation.

To review internal controls over employee benefits and reimbursements, we
examined the Collective Bargaining Agreement and written personnel policies
and practices. We also judgmentally sampled employee reimbursements as part
of our disbursements testing.

This review was limited in scope and was not sufficient for expressing an opinion
on the entire system of grantee internal controls or compliance.

The on-site fieldwork was conducted from December 8, 2008 through
December 12, 2008. Documents reviewed pertained to the period January 1,
2007 through November 30, 2008. Our work was conducted at the grantee's site
and at LSC headquarters in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                           OVERALL EVALUATION

Selected internal controls reviewed at Legal Services of Greater Miami (grantee)
were adequate as the controls related to specific grantee operations and
oversight, including program expenditures, fiscal accountability, and compliance
with LSC regulations. Controls were operating in a manner expected to ensure
compliance with the LSC Act and selected LSC regulations.

Grantee disbursements tested were adequately supported, allowable, and
appeared to be properly allocated to LSC.

Controls over the general intake process were adequate. General intake was
conducted through a standardized process involving documented program intake
and case acceptance procedures; the use of an electronic case management
system; and trained, knowledgeable and experienced staff.
Internal controls over compliance with specific LSC regulations, (45 CFR Parts
1604, 1610, 1612 and 1617) were adequate. Written compliance policies and
procedures, including applicable recordkeeping requirements, complied with the
respective LSC regulation. No exceptions were noted. In addition, derivative
income was received by the grantee in accordance with LSC regulations and
accurately accounted for.

Our review of the internal controls over employee benefits and reimbursements
revealed that the controls were generally adequate. Policies over employee
benefits practices were generally in writing and adhered to. However, three
areas were noted where internal controls could be strengthened. These areas
were policies governing: (a) advance pay for employees not covered by the
grantee's Collective Bargaining Agreement; (b) the use of grantee issued cell
phones; and (c) the procedures for securing services either through consultant
contracting or the use of temporary staff.


                               AUDIT FNDINGS

               EMPLOYEE BENEFITS AND REIMBURSEMENTS

      Salary Advance Policy for Non-Union Staff

Although grantee management stated that the practice was to allow advanced
pay to non-union staff, a written policy was not in place governing such
arrangements. A review of the general ledger revealed that some non-union
managerial staff had received advance pay during the period of review. While
the Collective Bargaining Agreement governs advance pay for union members,
such as attorneys and support staff, the Agreement does not include employees
in management or other non-union employees.

It is the grantee's practice to follow the process laid out in the Collective
Bargaining Agreement for both union and non-union employees. According to
the grantee, the advance pay policy is that a union or non-union employee is
entitled to two emergency pay advances and two vacation pay advances per
year. All employees use the same pay advance request form. However, we
noted an exception to this practice for one non-union employee in 2008. The
exception to the stated policy involved a member of management who was
issued three emergency pay advances and one vacation pay advance.

The Executive Director explained that not including the applicable provision from
the Collective Bargaining Agreement in the grantee written personnel policies
was an oversight.

LSC management has issued guidance to grantees regarding pay advances.
While not prohibiting salary advances to employees, the guidance notes the
importance of written policies and procedures governing such advances including
timely repayments.* In addition to strengthening internal controls, having written
procedures help ensure that all employees are treated fairly and help reduce the
potential for disparate treatment complaints.

       Recommendation 1 The Executive Director should incorporate the
advance pay provision from the Collective Bargaining Agreement into the grantee
written personnel policies for management and other non-union employees.


        Cell Phone Use Policy

A written policy was not in place governing the use of grantee issued cell phones.
Although only the Executive Director and Building Administrator possessed cell
phones issued by the grantee, there were no polices or procedures governing the
use of such devices by any grantee staff.

As electronic devices become more and more a necessity in conducting
business, establishing adequate internal controls, such as policies and
procedures, helps safeguard assets against unauthorized use or disposition.

      Recommendation 2 The Executive Director should formulate polices and
procedures for the use of cell phones and any other wireless devices and
incorporate such policies and procedures into the grantee's Finance Manual.


        Procedures Governing Contracts for Services

To supplement the work of its staff, the grantee utilizes the services of temporary
staffing agencies and occasionally contracts with an outside consultant.

The grantee utilizes the services of temporary staffing agencies to fill support
staff positions. As to the hiring of temporary staff, a routine office practice has
been in place. The grantee's Finance Manual documents a policy authorizing the
use of the services of temporary staffing agencies but does not describe the
specific procedures to be followed in filling temporary staff positions.

Additionally, the grantee does not have a formal written policy governing the
administration of consulting contracts. Even though according to the grantee, it
uses very few outside consultants, establishing formal written policies helps
strengthen controls over contracting and helps ensure that funds are properly
controlled.


 Advisory from the President, Legal Services Corporation, to all LSC Executive Directors
regarding "Fiscal Management and Use of LSC Funds" (March 20,2008)
      Recommendation 3 The Executive Director should incorporate existing
procedures over the hiring process of temporary staff into the grantee's Finance
Manual and develop formal written procedures governing consultant contracting.


           SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management has stated that the policies recommended relating to each
of the three findings have been adopted. The full text of grantee management
comments is at Appendix I.


       OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

Grantee management comments are responsive to the recommendations
contained in this report. The OIG considers all recommendations closed.
                                                                                                                APPENDIX I
                           LEGAL SERVICES OF GREATER MIAMI, INC.
                                                        Chesterfield Smith Center for Equal Justice
                                              3000 Biscayne Boulevard, Suite 500 Miami. FI 33137-4129
                                      Direct Line: (305) 438-2501      Fax: (305) 576-51 12    TDD: (305) 573-1578
                                                            MCypen@LSGMl.org          www.lsgmi.org


JOHN W. McLUSKEY
President
BENJAMIN L. REISS
I V i Pres~dent
Y P I C K LANDESS
2 Vice President

 A R R m J. BIONDO
?msurer
                                                       March 13, 2009
GISELA M. MUNOZ
Secretary

DARRELL PAYNE
Immediate Past President

MARCIA K. CYPEN
Executive Director



Ronald D. Merryman
Assistant lnspector General for Audit
3333 K Street, NW 3* Floor
Washington, DC 20007-3522

Dear Mr. Merryman:

            This will respond to the Draft Office of Inspector General Report on Selected Internal Controls.

            1.       Background (Page 1):

                     We request that the final report note that Legal Services of Greater Miami (LSGMI) was not
                     one of the grantees where OIG performedreviews during 2007 and found control weaknesses.

            2.       Recommendation 1 (Page 5):

                     LSGMI has adopted a policy as recommended.

            3.       Recommendation2 (Page 5):

                     LSGMI has adopted a policy as recommended.

            4.       Recommendation 3 (Page 5):

                     LSGMI has adopted policies as recommended.

                                                      Sincerely yours,



                                                      Marcia K. Cypen
                                                      Executive Director



                                                          *LSC
                                     PASSIONATELY COMMITTED TO EQUAL JUSTICE
